CERTIFICATE OF COMPLIANCE
No
In the

Supreme Court of the United States
Barbara Andersen
Petitioner
v.
Village of Glenview, Rick Gimbel
And Jacob Popkov
Respondents

SUPREME COURT RULE 33.2 CERTIFICATE
As required by Supreme Court Rule 33.2,1 certify that the petition for a writ
of certiorari contains 40 pages, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.2.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 17, 2020

rrv

o

Barbara Andersen
1220 West Sherwin, Unit IE
Chicago, IL 60626
708-805-1123
(Filed remotely from 8860 Dawn Haven Road, Northport, Michigan 49670)

